D-2008-054                      February 21, 2008




Independent Auditor's Report on the DoD FY 2007
Detailed Accounting Report of the Funds Obligated
   for National Drug Control Program Activities
Additional Information and Copies
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. If you have questions or would
like to obtain additional copies of this report, contact Ms. Amy J. Frontz at
(303) 676-7392 or Mr. Anthony C. Hans at (614) 751-1400.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704
                                   INSPECTOR GENERAL
                                  DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                            Febmary 21, 2008

MEMORANDUM FOR THE DEPUTY ASSISTANT SECRETARY OF DEFENSE
               (COUNTERNARCOIICS, COUNTERPROLIFERAIION, and
               GLOBAL THREATS)

SUBJECT: Independent Auditor's Report on the DoD FY 2007 Detailed Accounting
         Report of the Funds Obligated for National Drug Control ProgJam Activities
         (Report No D-2008-054)

        Public Law 105-277 is known also as "The Office ofNational Drug Control Policy
Reauthorization Act" (the Act). The Act requires that DoD annually submit a detailed report
(the Report) to the Director ofthe Office of National Drug Control Policy accounting for all
funds DoD expended for National Drug Control Program activities during the previous
fiscal year The Public Law was reauthorized by Public Law 109-469 in December 2006
The Act requires that the Inspector GeneJaI of the Department of Defense authenticate the
Report prior to its submission to the Director.

        Office of National Dmg Control Policy Circular "Drug Control Accounting," (the
Accounting Policy Circular) May 1, 2007, provides the policies and procedures DoD must
use to prepare the Report and authenticate the DoD funds expended on National Drug
Control Program activities.. The Accounting Policy Circular specifies that the Report must
contain a table ofprior year drug control obligations, listed by functional area, and include
five assertions relating to the obligation data presented in the table.

         The Deputy Assistant Secretary of Defense (Counternarcotics, CounterprolifeJation,
and Global Threats) (DASD[CN/CP/GT]) was responsible for the detailed accounting of
funds obligated and expended by DoD for the National Drug Control Program for FY 2007
We have reviewed the DASD (CN/CP/GT) detailed accounting in accordance with the
attestation standards established by the American Institute of Certified Public Accountants
and in compliance with generally accepted government accounting standards We
performed a review-level attestation, which is substantially less in scope than an
examination done to express an opinion on the subject matter Accordingly, we do not
express an opinion

       We reviewed five DoD reprogranrming actions that allocated $1,277.. 8 million
among the Military Departments, National Guard, and Defense agencies We reviewed the
year-end obligation report and determined that DASD (CN/CP/GT) allocated the funds to
appropriations and project codes intended for the DoD Counterdrug progJam.

        The DoD Office of Inspector General previously identified a material management
control weakness related to the DoD Components' accounting for Counterdmg
funds. In response to our identification of this weakness, DASD (CN/CP/GT) issued a
policy memorandum on August 25, 2005, requiring detailed transaction support for all
Counterdmg obligations.

        As part of our review attestation for FY 2007, we detetmined whether the DoD
Components that received Counterdmg funding from DASD (CN/CP/GT) had implemented
procedures to support repOlted obligations with detailed transaction listings. We requested
and obtained the listings that were available for reported obligations. We were able to
obtain the majority of detail transactions for the Militmy Component obligations.

       DASD (CN/CP/GT) provided us the Report in a letter dated Janumy 14, 2008, which
we reviewed to determine compliance with the ~~eounting Policy Circular. The detailed
accounting indicated that $1,192.1 million was obligated during FY 2007 for the DoD
Counterdrug program in eight functional areas. The Office of the DASD (CN/CP/GT)
manually compiled the Report from data the Military Departments and other DoD
Components submitted.

        DASD (CN/CP/GT) initially reprogrammed the funds from the Central Transfer
Account to the DoD Components, using project codes. The DoD Components provided
year-end obligation reports, identified by the same project codes, to the Office of the
DASD (CN/CP/GT). The Office ofthe DASD (CN/CP/GT) consolidated the year-end
obligation reports into one obligation report. In order to present the obligations by
functional area in compliance with the Accounting Policy Circular, the Office of the
DASD (CN/CP/GT) applied percentages to each project code in the consolidated report to
compute the amounts presented in the table of obligations instead of obtaining the
information directly from the accounting systems.

        Based on our review, except for the fact that the Office of the DASD (CN/CP/GT)
used percentages to calculate the obligations presented by functional area, nothing came to
our attention during the review that caused us to believe the detailed accounting of funds
obligated by DoD on the National Drug Control Program for FY 2007 is not presented, in all
material respects, in conformity with the Accounting Policy Circular.




                                t~                ~·IJJ~
                                Patricia A. Marsh, CPA
                               Assistant Inspector General
                            Defense Financial Auditing Service




                                             2
                OFFICE OF THE ASSISTANT SECRET ARY OF DEFENSE
                                2900 OE F'E N S E PENTAGON
                               WASHINGTON . O .C . 20301 -2900




Mr . Jon Rice
Assoc iate Director
Performance and Budget
omce uf :'\at ion<lllJrog Contro l Policy
7:"0 1 7'~ Street. :'\W
Room 535
Wa...hingto n. LX: 2050 3



         In my capacity as Deputy Assistan t Secret ary of Defense for Counternarcouc s.
Countcrprolifc retion and G lobal Th reats. [ assertthat the drug methodology used to
calculate obligations by drug ccmtrul function of Fisca l Year 200 7 budgetar y resources is
reasonable and accurat e. r furt her assert that the obligation table in TAB A IHI" gen erated
by the methodology as refle cted in TA B H. T he obligations arc associa ted with a financia l
plan that prupcrly reflects all changes made dur ing the fiscal year. The Count crnurcotic s
Central Tran sfe r Account does not receive Fund ControlNotices and. therefor e. any
a....enion regarding this is inapplicable. Assertions regardin g Performance RCpllrli ng willbe
addrcsccd und er separate co rrespondence.


                                            Sincerely.




                                   ",lf1:diS~~
                         Ikpuly Assistant Secretary o t Detense
                  Countemarcotics, Coumerprolifcrauon & G lobal Threats




Enclosu res :
As stated

(1< :
OODlG
CENTRAL TRANSFER ACCOUNT

                                           FY07
         Intelligence                   170,361
         Interdiction                   298,061
         Intemational                   370,770
         Investigative                    49.867
         Prevention                     131,024
         R&D                             20,470
         State & Local Assistance       143,810
         Treatment                         7.781
         Total                        1,192,142 '

'This amount inclLJdes a 98% obligation rate for MILPERS arld a 99% obligation rate for O&M.
Investment appropriations, which are mUlti-year, are currently obligated at 59%.



DRUG RESOURCES PERSONNEL SUMMARY

         Total FTEs                       lli<
                                           1,463
                                   DRUG METHODOLOGY

Central Transfer Account

        The Counternarcotics Central Transfer Account (CTA) was established in PBD 678
in November 1989. Under the CTA, funds are appropriated by Congress to a single
budget line, not to the Services baselines_ The eTA accounts for all counternarcolics
resources lor fhe Department of Defense with the exception of OPTEMPO and Active Duty
MILPERS. Funds are reprogramme<l from the eTA to the Services and Defense Agencies
In the year of eJl:ecution. The CTA allows for greater eJl:ecution flexibility in the
countemarcotlcs program wlIt1 the ability to realign resources to address changes in
requirements. The CTA is essential to respond effectively 10 the dynamic nature of the
drug threat.

       The Office of National Drug Control Policy (ONDCP) reports within the National
Drug Control Strategy the amount of ftJnds appropriated to the counlemarcolics CTA. The
actual obligations for the countemarcotics program for a parttcular fiscal year differ from
the amount released to the CTA since some of the DoD countemarcotics effort is executed
wlIt1 multi-year funding.

       The reprogramming process begins with reprogrammlllQ documents (OD1415 and
001105) prepared by the Office of the Deputy Assistant Secretary of Defense for
Counternarcotics and forwarded to 000 Comptroller. Funds are reprogrammed to the
applicable appropriatiorv'budget activity at the ServiceJDefense Agency by project (e.g.,
Navy's Fleet Support, Hemispheric Radar Syslem. Countemarcotics RDT&E) The
Internal reprogramming (IR) action requires no congressional notification/approval.

         The 5ervicesJDefense Agencies have their own internal accounbng systems fof
tracking obligalJons of funds transferred from the Counlemarcotics CTA. The following
examples provide the process of how obligations are tracked:
• The Army Budget Office receives obligation data from the Defense Finance and
    Accounting System (DFAS) on a monthly basis and funds are tracked by the
    DFASIStaooard Army Financial Information System (STANF1NS).
• The Air Force uses the USAF General Accounting & Finance System (GAFS) and the
    Commanders Resources Integration System (CRIS) to track obligalJons. Both of these
    systems are utilized for Countematcotlcs obligations and commitments. These
    systems interface dlrectty WIth the OfAS
• The Navy uses the Standard Accounting and Reporting System, Field Level (STARS-
    FL) which provides the means of tracking allocated countemarcotics funds through the
    life cycle of the appropriation at the activltylfield level. Navy countemarcotics funding is
    recorded under separate cost centers and sub-cost centers. with a line of accounting
    consisting of subhead, project Units and cost codes specifically for countemarcotics
    obligation tracking.
• The Army and Air National Guard employs It central accounllng service from the OFAS
    to consolidate, aggregate, and report on ftJnds as they are committed. obligated, and
    expended. The Army Slale and Federal Program Accounting Codes and the Air
   Accounting Codes provide funds-ltacking mechanisms to reconcHe funding at various
   levels of reporting and execution.

       The ServlcesJDefense Agencies provide quarterly obligation reports by project code
to the Office of the Deputy Assistant SeCfetary of Defense for Countemarcotics (CN)
These indMdual reports are recorded on a spreadsheet and compiled fmo a single
counternarcotics obligation report. The obtigation and expenditure data provided by the
ServiceslOefense Agencies are compared agaInst their total annuaJ countemarcotJcs
funding for each appropriation. At the end of the year, lhe ServiceslDefense Agencies
prOVIde an end of year status report whkh reflects their actual oblIgation data, not an
esllmation

       The quarterly obligation reports provided by the ServiceslOefense Agencies include
obligation and expenditure data by project code not down to the drug control functIOn. In
order to comply with ONDCP's circular and prOVide obligation data by function, it was
necessary 10 use percentages for each project code.
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Patricia A. Marsh
Amy J. Frontz
Anthony C. Hans
Kevin C. Currier
James C. Darrough
Brian M. Stumpo
Brian L. Henry
